<html>
<title> - FIGHTING CRIME: THE CHALLENGES FACING LOCAL LAW ENFORCEMENT AND THE FEDERAL ROLE</title>
<body><pre>[Senate Hearing 109-755]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-755
 
  FIGHTING CRIME: THE CHALLENGES FACING LOCAL LAW ENFORCEMENT AND THE 
                              FEDERAL ROLE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 22, 2006

                               __________

                          WILMINGTON, DELAWARE

                               __________

                          Serial No. J-109-116

                               __________

         Printed for the use of the Committee on the Judiciary



                    U.S. GOVERNMENT PRINTING OFFICE
32-150                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
           Michael O'Neill, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware.......................................................     2
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     1

                               WITNESSES

DiSabatino, Vincent J., Master Corporal, Wilmington Police 
  Department, Wilmington, Delaware...............................    11
Horvath, Jeffrey, Chief of Police, Dover Police Department, 
  Dover, Delaware................................................     8
Kane, Jim, Executive Director, Delaware Criminal Justice Council, 
  Wilmington, Delaware...........................................     4
Mosley, James, Director, Wilmington Department of Public Safety, 
  Wilmington, Delaware; accompanied by Michael Szczerba, Chief of 
  Police, Wilmington Police Department, Wilmington, Delaware.....     6

                       SUBMISSIONS FOR THE RECORD

DiSabatino, Vincent J., Master Corporal, Wilmington Police 
  Department, Wilmington, Delaware, statement....................    29
Horvath, Jeffrey, Chief of Police, Dover Police Department, 
  Dover, Delaware, statement.....................................    32
Nolan, Cheri, Senior Policy Advisor, Criminal and Juvenile 
  Justice Issues, Substance Abuse and Mental Health Services 
  Administration, statement......................................    35


  FIGHTING CRIME: THE CHALLENGES FACING LOCAL LAW ENFORCEMENT AND THE 
                              FEDERAL ROLE

                              ----------                              


                       FRIDAY, SEPTEMBER 22, 2006

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:30 a.m., at 
the Clarence Fraim Boys and Girls Club, Wilmington, Delaware, 
Hon. Arlen Specter, Chairman of the Committee, presiding.
    Present: Senators Specter and Biden.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Chairman Specter. Good morning, ladies and gentlemen. The 
Senate Judiciary Committee hearing on ``Fighting Crime: The 
Challenges Facing Local Law Enforcement and the Federal Role'' 
will come to order. You know, Senator Biden is a past Chairman 
of the Senate Judiciary Committee, also a past Chairman of the 
Senate Foreign Relations Committee, a unique role in American 
political history, being elected to the United States Senate at 
the age of 29 when the Constitution sets the minimum age at 30.
    [Laughter.]
    Chairman Specter. But his mother and father were careful 
enough to arrange his chronology so that he became 30 before 
his swearing-in date. And he and I have worked very closely 
together in the time I have been in the Senate, although he is 
8 years my senior in tenure in the Senate. And we share many 
common goals and many common interests, and one of the critical 
ones is law enforcement.
    Senator Biden has been a leader in providing the so- called 
COPS program to have Federal funding to assist local law 
enforcement. Regrettably, there is not enough Federal funding 
on that subject, but we continue to work on it within budget 
constraints. He has also been the leader, with my 
cosponsorship, on protecting women against violence, and we are 
now working on the so-called Second Chance legislation to 
give--he is the principal sponsor. Again, I am working with 
him, as is Senator Brownback and others, to recognize that most 
people who are in jail are going to be released, and that it 
makes good sense to provide realistic rehabilitation so that 
they are not recidivists, coming back to commit more violent 
crimes, and also to give them an opportunity for rehabilitation 
to be productive citizens.
    Senator Biden and I were just talking about the 
difficulties of being so close to the big cities. You have 
Philadelphia a short distance to the north, and you have 
Baltimore not too far to the south, and that exposes Wilmington 
to a great many transient drug users and other violent 
criminals.
    So I am delighted that Senator Biden has taken the 
leadership on moving for this hearing, and I am very pleased to 
participate with him.

STATEMENT OF HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR FROM THE 
                       STATE OF DELAWARE

    Senator Biden. Mr. Chairman, thank you. Thank you for being 
here today. The people of Delaware are thankful for your being 
here, and I appreciate it very much.
    It is true that we have had very close relationships. Back 
in the old days when I was Chairman, we used to hold those 
hearings as well in Philadelphia, and there is a real 
relationship. We are much, much smaller, but what happens on 
Aramingo Avenue ends up on Market Street here. And what happens 
on Market Street here ends up in Seaford, Delaware. And what 
happens in Seaford ends up a little further down. So this is 
all connected.
    But I want to thank you very much. You have been a 
stalwart. The whole genesis of the so-called crime bill that 
people talked about in 1994 was yours. It sounds like a mutual 
admiration society, but it is important that people know it was 
your Career Criminal Act, deciding to take what was limited 
resources and focus on those who commit most of the crime. I 
know all the officers here know, if they could take 7 to 10 
percent of the people off the street that they could identify, 
they would reduce crime by 50 percent. And so that was the 
genesis of all that we worked on, and I again thank you for 
being here, and especially since you have got a busy day today. 
And I wish you a Happy New Year, and I know you have got to be 
home to celebrate with your family, too. So I am going to move 
this along.
    I have a statement I would like to ask unanimous consent it 
be placed in the record, if I may, Mr. Chairman.
    Chairman Specter. Without objection.
    Senator Biden. And I will make just a couple comments.
    You know, we hit on a system that worked pretty well, and 
you were one of the prime movers of what most people call the 
COPS bill, but it is the crime bill, which was much more than 
adding 100,000-plus cops on the street.
    We also put money in for prevention and for prisons, and an 
interesting thing happened. As the witnesses, I suspect, will 
recall, they took that money and used it very wisely. Crime 
went down on average 7.5 percent a year for about 8 years. And 
one of the things that has happened is we were so successful--
or I should say law enforcement was so successful using the 
additional tools we gave them that it is sort of like--among 
both our confreres in the Democratic and Republican Party, it 
is sort of like, well, we won the war on crime, it worked. I 
mean, they did such a good job people started thinking that 
maybe we can do less next year--not less in terms of the effort 
of law enforcement, but less in terms of funding.
    The result has been, as you by implication have referenced, 
over the last several years we have cut several billion 
dollars, close to $4 billion in local law enforcement 
assistance from the Federal level. I know you have resisted 
those cuts, and I know you have added money back, and I know we 
are facing real budget constraints. But I would just like to 
point out that crime and fighting crime I think is like cutting 
grass. You go out and cut your grass this weekend or in the 
middle of summer, and it looks pretty good. You let it go a 
week; it still looks good. You let it go a month; it looks 
ragged. You let it go for 3 months; you have got a jungle 
again.
    And I do not know how we can ever, quite frankly, unless 
the population in the crime-committing years, those folks 
mostly young men between the ages of 14 and 30, unless that 
population drops significantly, I do not know how you can ever 
spend less money on law enforcement than you did the year 
before.
    But in a sense, our colleagues who are going to be 
testifying today have become victims of their success. And the 
result is that crime rates--and I have this in a statement. I 
will not take the time to go into it now. But we find ourselves 
in a position where the Bureau of Statistics, the Uniform Crime 
Report of 2005--we do not have it for 2006 yet, obviously. The 
violent crime is starting to tick back up. We have a similar 
problem where we just have a miniature problem, we were talking 
earlier, of what you have in your great city of Philadelphia. 
The murder rate is high. Most of I think we are going to find 
is drug related.
    And so there is a whole lot of work to do, and I think what 
we have to try to figure out to do is how do we deal with 
attempting to restore--I said 4 billion. I misspoke--$2 billion 
in cuts to local law enforcement over the past 6 years. How do 
we better allocate the dollars to give law enforcement the 
resources they need?
    I will conclude by saying my Dad used to have an 
expression, and you knew my Dad, and he was a great admirer of 
yours, as you know. He really was a great admirer of yours. My 
Dad used to say when I was a kid, I would come in and say, 
``But, Dad.'' And I would give him an excuse for something I 
was not supposed to have done or what I should have done and I 
did not do. And I would say, ``But I went and did such-and-
such.'' And he would look at me, and he would say, ``Champ, if 
everything is equally important to you, nothing is important to 
you. It is all about priorities.'' And I think the single most 
significant priority--and I know you know this from your days 
as D.A., and no has been more steadfast than you. I do not 
think Government has any responsibility higher than making the 
streets safe for people to be able to walk them. And you can 
have all the civil rights and all the civil liberties and the 
greatest education program and health care program, et cetera. 
But if you do not have safety on the street, then you are in 
real trouble. None of the rest matters nearly as much as it 
should.
    So, with that, Mr. Chairman, I want to again thank you 
very, very much, and I would like to thank the Clarence Fraim 
Boys and Girls Club for accommodating us today, and thank all 
of you for being here. I know when Arlen, when the Senator 
walked in, he said, ``You have got a good crowd here.'' And I 
said, ``These people are the leaders in the community. They are 
very concerned about what is going on and what is not going 
on.''
    So I welcome you to our State. I thank you for coming, and 
I yield the floor.
    Chairman Specter. Thank you very much, Senator Biden.
    We now turn to our distinguished panel of witnesses. The 
big time clock shows a 5-minute customary parameter for 
statements. To the extent you can adhere to that, we would 
appreciate it, giving us the maximum time for questions and 
answers.
    Our first witness is Mr. Jim Kane, the Executive Director 
of the Delaware Criminal Justice Council. He has quite a resume 
in this field, having served on the Governor's Advisory 
Commission on Youth, the Governor's Council on Alcohol, Drug 
Abuse, and Mental Health, and the Governor's Safe Streets 
Committee; previously was President of the National Criminal 
Justice Association from 2001 to 2003, so he has quite a lot of 
experience here.
    Thank you for coming in today, Mr. Kane, and we look 
forward to your testimony.

 STATEMENT OF JIM KANE, EXECUTIVE DIRECTOR, DELAWARE CRIMINAL 
             JUSTICE COUNCIL, WILMINGTON, DELAWARE

    Mr. Kane. Thank you. Thank you for allowing me to testify 
today. I would like to thank the Boys and Girls Club for 
allowing us to use the facility. The Criminal Justice Council 
has a long history with the Boys and Girls Club. Their 
innovative approaches to working with young people have allowed 
them to serve thousands of at-risk children with Federal money 
funneled through the Council. They have opened six clubs in 
Kent and Sussex Counties. They have always been there to fill 
the needs of any request that I have made of them, no matter 
how late at night and no matter how bizarre. Senator Joseph 
Biden has been instrumental in funding the National Boys and 
Girls Clubs to begin small town Boys and Girls Clubs and Native 
American reservation clubs.
    At the Criminal Justice Council, we tend to look at the 
criminal justice system as a continuum of events involving 
clients as they flow through the system. The Criminal Justice 
Council began looking at the characteristics of convicted 
criminals about 20 years ago. We have reviewed social and 
economic demographics of violent criminals. We have looked at 
these criminals as juvenile delinquents. We have looked at the 
same delinquents as abused children prior to their involvement 
in the criminal justice system. Over the years, we have become 
rather adroit at arresting, prosecuting, and convicting serious 
offenders. One of the things that we know for certain is that 
two-time violent felons have an excellent chance, about 80 
percent, of being convicted of another violent felony. 
Therefore, we have concentrated most of our efforts in the law 
enforcement area on serious predators who we know are very 
difficult to rehabilitate. We have concentrated on these 
individuals with assistance from the United States Department 
of Justice. We have usually been able to reduce crime in 
whatever geographic grid we work with these offenders. That way 
we can maximize our enforcement efforts. We have been less than 
successful in rehabilitating this population.
    One of our more successful programs has been Operation Safe 
Streets. This program combines prevention efforts, law 
enforcement, victim assistance, and reentry opportunities for 
returning inmates with two previous felony convictions in pre-
defined geographic grids. Prevention services are provided at 
community centers, Boys and Girls Clubs, and Police Athletic 
League. During nighttime hours, police, adult, and juvenile 
probation officers team with each other to supervise and check 
on two-time violent felons returning to their community. The 
results in defined areas have been startling.
    For example, in Wilmington our Safe Streets operations have 
dramatically reduced shootings in whatever neighborhoods they 
were placed. Secondary and tertiary victims of crime have been 
provided with grief and fear support. Literally hundreds of 
violent felons have been reincarcerated over the last 5 years. 
Thousands of youth were served.
    Now, as an example of how serious and dangerous this is, 
last night two of the Wilmington Safe Streets officers were 
actually in an accident and went to the hospital because they 
were chasing people through a neighborhood.
    The Delaware State Police has incorporated Safe Streets, 
and they call it the Governor's Task Force. These units 
function statewide and have been responsible for large amounts 
of arrests and drug and gun confiscations.
    The Dover Safe Streets Operation has increased the safety 
in the city of Dover. Again, as a reminder of the seriousness 
of the people that the officers are concentrating on, two 
officers were seriously wounded in a shootout in Dover chasing 
a Safe Streets client late at night.
    New Castle County: We began a limited Safe Streets 
Operation in New Castle County just on June 19th. Since June 
19th, 200 teenagers were served by PAL and the Boys and Girls 
Club; 120 two-time violent felons were removed from the 
community; $18,000 was seized in cash or stolen property; and 
over 600 grams of illicit drugs were found. We also seized 6 
weapons, 47 victims of violence were served through our victim 
unit, and 70 probationers who decided to do the right thing 
received rehab services.
    I think three of the Safe Streets officers are in the back 
in the yellow shirts from the county. I do not know where you 
guys are. Did they run away? They do not like any credit, but 
they are out there risking their lives every night for us.
    Our studies have indicated that 80 percent of the shooter/
shootees in the city of Wilmington are African American males 
between the ages of 14 and 24. If you look at the criminal 
justice system and criminals as a pyramid, the top of that 
pyramid are two-time violent felons. The pool of individuals at 
the bottom tend to be poor African American male children who 
do not have the means to make it in society. The Safe Streets 
program addresses both ends of the spectrum. We deal with high-
risk probationers, and we also try to work with and help high-
risk children.
    The reduction in Federal crime dollars has already reduced 
the community policing capacity. Elimination of the COPS 
program has destroyed a tool that we could use in the local 
level to prevent crime.
    Prevention and Byrne dollar reductions have almost 
eliminated our ability to open community centers in the 
evening.
    Most of our case processing projects that defer minor 
offenders from going through the system have been changed.
    We have lost thousands in drug treatment money; therefore, 
our ability to rehab inmates in the community has lessened.
    Safe Street Operations will not be implemented in highly 
needed neighborhoods because of the lack of money.
    In the past, the crime bill provided the States with a 
balanced funding approach to criminal justice so that we could 
create innovations for the different components of the system. 
The crime bill created many innovations in the area of speedy 
trial that otherwise would not have been initiated. The 
reduction of Federal dollars has greatly diminished our 
balanced approach.
    I would like to thank Senator Biden and Senator Specter for 
their overwhelming support for State and local criminal 
justice, and I would be happy to answer any questions.
    Chairman Specter. Thank you very much, Mr. Kane.
    We turn to our second witness, Mr. Jim Mosley. He began his 
career as a helicopter door gunner while serving in South 
Vietnam and was selected by the Supreme Allied Commander in 
Europe to lead his personal security team.
    Mr. Mosley is the Public Safety Director for the City of 
Wilmington and serves as the anti-terrorism coordinator for the 
city; bachelor's degree in business administration from 
Delaware State University; master's degree in administration of 
justice from Webster.
    The floor is yours, Mr. Mosley.

 STATEMENT OF JAMES MOSLEY, DIRECTOR, WILMINGTON DEPARTMENT OF 
  PUBLIC SAFETY, WILMINGTON, DELAWARE; ACCOMPANIED BY MICHAEL 
   SZCZERBA, CHIEF OF POLICE, WILMINGTON POLICE DEPARTMENT, 
                      WILMINGTON, DELAWARE

    Mr. Mosley. Thank you very much, sir. As Mr. Kane 
mentioned, the supporting of the presence of police officers in 
those programs that are used within the various cities, 
certainly in Wilmington, has greatly impacted our ability in 
the past to keep our police officers forward deployed. And by 
that I mean we have been able to keep the officers on the 
streets.
    In the absence of these programs, we have to use--I have 
the Chief of Police, Mike Szczerba, here with me, who can 
answer specific questions related to employment and deployment 
of police. But the absence of these programs causes the Chief 
to bring out those folks that we would like to keep forward 
deployed in the streets and put them in specialized programs 
and/or areas where, thus, taking away from our street presence. 
And when we take away from the street presence, the citizens 
see that and the police see that as a very frustrating thing.
    Recently, we have adopted a program in the city. It is a 
study that began at Yale University in Connecticut, and it is 
called the Child Development Community Policing Program, which 
is an augmentation to the police in that now when the police 
respond to an incident where children are involved, be they 
victims or witnesses, the police stay and we now send in a 
trained clinician to work with the families of the victims and/
or witnesses to these incidents, thus hoping to have an impact 
on just how our children--first of all, how they view police, 
one; and then the other certainly is what impact it has on them 
and their future as productive citizens.
    But, again, the police-funded, federally funded programs 
has--when we talk about impacting on the presence of police 
officers, the Wilmington police officers respond to 
approximately 130,000 calls for service a year. For the most 
part, they are a 911-driven organization. The men and women of 
the police department do an excellent job of responding and 
preventing crime as best they can. However, there are many 
crimes--there are many calls for service that go unanswered. 
There are many calls for service where people have to wait 
sometimes hours to get a police officer to respond to the less 
serious offenses. Certainly they, like any other police 
organization, will prioritize their calls, and those that 
threaten public safety are certainly at the top of the list. 
But in this absence of Federal assistance, we have had to cut 
our forces back considerably.
    As far as monies within the city, city money funding for 
police competes with the need to secure and improve upon your 
infrastructure. There are still potholes. There are still 
buildings that need repair. There are still many other things 
that the city needs in order to sustain itself and serve its 
citizens that now we are up and competing for.
    We have had to--some of our schools in the city have hired 
private police officers so that they can assure their students 
and families that they are safer. We have done the same thing 
with various housing communities within the city as well. They 
have hired private police officers, some of which are police 
officers. We have been fortunate enough to be able to increase 
our authorized strength by these numbers; however, these police 
officers come to work and go to these respective agencies that 
hire them as private officers.
    Again, I have got to go back to the inability to timely 
respond to our calls for service. That impacts on the--and I am 
sure everybody here is familiar with the term ``community 
policing.'' I am a very big proponent of community policing. I 
think the community and the police working together makes for a 
better community, makes for a safer community, and I think it 
enhances both of our--what we are trying to do in the streets.
    But if we cannot do that, if the police cannot be there in 
a timely fashion, if they cannot stay there for the time that 
they would like to, and if they cannot have that presence as a 
beat cop, if you will, or as a district cop or community 
policing officer, then it impacts, again, on the public's 
perception of the police. The police are viewed as not caring, 
which is certainly not the case. They do care. They do an 
excellent job of what they do.
    But the other thing is since 9/11, one thing that 
nationwide we have talked about is the weapons of mass 
destruction, the need to protect the homeland and those types 
of things. But I will tell you, gentlemen, as I go through the 
neighborhoods and talk about homeland security and weapons of 
mass destruction, what I too often get is the homeland for the 
majority of our citizens is right outside their door. The 
protection for them is ridding their corners or neighborhoods 
of the drug-related criminals and criminal activity in the 
neighborhood. For them, when you talk about securing in place, 
too often for them that means something like staying out of the 
windows at night and/or sleeping below the window ledge so that 
stray bullets do not come through the houses in the middle of 
the night.
    Now, a lot of that has got to do with the absence of 
having--the inability to have a police presence in the 
neighborhood, and that is absolutely important. When you talk 
terrorists to these folks that are victims of this, the 
terrorist to them is, again, a group too often of drug- dealing 
and/or drug-using individuals in their neighborhoods. That is 
their terrorism. That to them is the most threatening to them. 
A weapon of mass destruction is a gun or a group of guns where 
you have these individuals shooting at one another.
    I understand what they are saying, and it is very difficult 
to get them to--we have a saying here in the State: If you see 
it, say it. And as it relates to terrorists, suspicious 
activity, we want people to do that. But the question I get 
back is: ``You want me to tell you about terrorism. I am 
telling you about my street. That is as far as I can see and go 
right now, because that is the immediate threat to me. And it 
is very, very real.''
    I would be glad to answer any questions.
    Chairman Specter. Thank you very much, Mr. Mosley.
    Our next witness is Chief Jeffrey Horvath. A graduate of 
the Delaware State Police Academy in 1984, he has risen through 
the ranks: patrolman, patrolman first class, corporate, 
sergeant, lieutenant. He holds an associate's degree in 
criminal justice from Delaware Technical and Community College 
and is a graduate of the FBI National Academy.
    We appreciate your service and your being here, Chief 
Horvath, and we look forward to your testimony.

  STATEMENT OF JEFFREY HORVATH, CHIEF OF POLICE, DOVER POLICE 
                  DEPARTMENT, DOVER, DELAWARE

    Chief Horvath. Thank you. Chairman Specter, Senator Biden, 
thank you for giving me the opportunity to speak here today. I 
consider this to be a privilege. As you said, I am the Chief of 
Police of the Dover Police Department. I also serve on the 
Board of Directors of the Delaware Police Chiefs Council. I am 
the Vice Chairman of the Delaware Police Chiefs Foundation, and 
I serve as the Delaware Chiefs' Representative to the State 
Association of Chiefs of Police, known as SACOP. I only mention 
that because I would like to think that I am not here today 
just representing the 91 sworn men and women of the Dover 
Police Department, but I am also representing the Delaware 
Police Chiefs Council and the smaller departments in Kent and 
Sussex Counties.
    I would like to begin by talking about Dover, however. As I 
stated, we have an authorized strength of 91 sworn officers, 
which makes Dover the fourth largest police department in the 
State of Delaware. Although we face many challenges, I can 
state with absolute certainty that illegal drugs and the 
related crimes that surround them are our greatest challenge. 
My officers have heard me say time and time again that I really 
believe that at least 80 percent of all crime is either 
directly or indirectly related to the illegal drug sales that 
occur on our streets.
    There are also three colleges, a university, Dover Downs 
International Speedway, and the Dover Air Force Base located in 
the city limits, which add to our responsibilities and our 
duties and our challenges.
    When I was promoted to chief in 2001, we had 81 sworn 
police officers. We have been able to increase our authorized 
strength by ten officers over the past 5 years. Six of those 
ten officers are a direct result of my department securing 
Federal grants through the COPS program. It has been, in my 
opinion, a tremendous success. Without those funds, we would 
not have been as effective as we are today, and since adding 
those officers, we have increased our drug unit, and as a 
result, we have been able to increase our proactive drug 
arrests every year for the past 5 years. And we are on schedule 
to increase it greatly this year also.
    As a result of COPS funding, we also now have two school 
resource officers. I think Capital School District was one of 
the last districts to obtain school resource officers, and, 
quite frankly, it was long overdue. Without the COPS program, 
as the chief I would not have been able to place two police 
officers in the schools. The officers have made an immediate 
impact and are providing a much safer environment for our 
children to learn. These officers have arrested drug dealers in 
the school and have removed them from the school. They have 
confiscated dangerous weapons, and they have prevented acts of 
violence in the hallways and on the playgrounds. We have also 
used COPS money to add police officers to our patrol force, 
which I think everybody here will agree is the backbone of any 
police department.
    I have also been fortunate enough to have a City Council 
that recently agreed to add four officers to the department to 
form what we call a Quality of Life Task Force. These officers 
go out and their job is to enforce the often overlooked, less 
serious crimes and violations that, quite frankly, most police 
officers do not have the time to deal with because of the 
increased calls for service. We are trying to use these guys to 
increase the quality of life for the people that live in our 
neighborhoods. Some of those crimes, just to let you know, 
would include loud parties, loud music, public intoxication, 
prostitution, and loitering, just to name a few.
    I would have loved to have used COPS money to get these 
four officers. Luckily, we had money from a red light camera 
enforcement program to use. But I am one of the fortunate 
chiefs that is able to sit here and tell you that I had a 
council that agreed to add police officers to the department. A 
lot of chiefs have not been as fortunate and cannot tell you 
the same story. In fact, at the last SACOP meeting in March of 
this year, several chiefs were actually talking about having to 
reduce the number of police officers to meet budget cuts. Many 
chiefs were complaining about the lack of Federal funding which 
was preventing them from adding valuable and needed officers to 
their department. Instead of securing Federal grants to add 
officers to our streets, departments are forced to do more with 
either the same number of officers or in some cases to do more 
with less.
    Where has all the Federal funding gone? In the proposed 
President's Federal budget, the JAG program originally was 
completely eliminated. The proposed budget also greatly reduces 
the COPS program from $478.3 million in fiscal year 2006 to 
just $102 million in fiscal year 2007. The interesting part 
about that number is that $100 million of that $102 million was 
actually carry-over from previous budgets. This means the 
administration is only proposing $2 million in new funding for 
the COPS Office.
    Some will argue, however, that additional funding has been 
proposed for the Department of Homeland Security. More funding 
for homeland security is very important, and I support that to 
the end. However, I think it is important that we do not rob 
Peter to pay Paul, and that is what it appears that we are 
doing. Homeland security is extremely important, but it is no 
more important than maintaining the core capabilities of local 
law enforcement so that they are able to meet the day-to-day 
challenges of protecting our communities from traditional acts 
of crime and violence. At a recent meeting of the IACP, they 
were explaining this, how they have taken money from COPS and 
JAG and moved it over to homeland security, and I thought it 
was interesting that one of the chiefs actually stood up and 
said that he had 14 homicides in his jurisdiction and Osama bin 
Laden was not a suspect in any of them. So it kind of hit home 
with me.
    Through the Department of Homeland Security, each police 
department in Delaware has received protective gear, numerous 
items of necessary equipment, and valuable training. However, 
none of the Department of Homeland Security funds can be used 
to hire more police officers, and we no longer can afford to 
add officers to our departments.
    Hometown security is homeland security. Local law 
enforcement has demonstrated this on numerous occasions. The 
arrests of Timothy McVeigh and Eric Rudolph by local police 
officers are examples of the critical role that local law 
enforcement officers play in homeland security. Homeland 
security should include ensuring that State and local law 
enforcement agencies continue to place officers out in the 
communities so they can interact with the citizens and 
investigate suspicious behavior.
    I have gone over my time, so I will cut this short. I just 
want to finish by saying the Dover Police Department has 
received over $1.2 million in Federal grants over the past 10 
years. One of the chiefs prior to me, Chief Hutchinson, also 
added a great number of police officers to our department using 
Federal grants. It has been extremely valuable in helping us 
protect the streets of Dover, and without those Federal funds, 
we would not have been able to do that.
    Thank you very much. I would be willing to answer any 
questions.
    [The prepared sttement of Chief Horvath appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Chief Horvath.
    Our final witness is Master Corporal Vincent DiSabatino, 
who is the President of the Wilmington Fraternal Order of 
Police. Mr. DiSabatino has been on the Wilmington Police 
Department since 1984, served in the Patrol Division until he 
was promoted to detective, and he currently serves in the 
Drugs, Vice, and Organized Crime Division, where he teaches new 
recruits at the Police Academy.
    We appreciate your being here, Mr. DiSabatino, and the 
floor is yours.

STATEMENT OF VINCENT J. DISABATINO, MASTER CORPORAL, WILMINGTON 
            POLICE DEPARTMENT, WILMINGTON, DELAWARE

    Mr. DiSabatino. Thank you. Chairman Specter and Senator 
Biden, I would like to thank you for the opportunity to testify 
about the challenges that local law enforcement professionals 
face on a day-to-day basis.
    The local patrol officer faces many challenges, and I am 
here to discuss the difficulties encountered by local 
officers--from the officer working the beat to the probation 
and parole officer who has to deal with the criminal element 
once they are released back into society.
    It seems that every day we are reminded of the Iraq war and 
the unfortunate casualties there. We hear about the killing of 
innocent men, women, and children and the never- ending 
challenges facing the Iraqi people. We are told we need to send 
more troops, money, and supplies to free the people of that 
country from fear and terror.
    I believe that we have forgotten or placed second the 
struggles against crime here at home. Criminals have terrorized 
Americans in communities throughout the Nation, making them 
afraid to go out into their own neighborhoods and enjoy some of 
the same freedoms that we are trying to bring to the people of 
Iraq. These neighborhood terrorists control and lock down whole 
city blocks, making citizens afraid to go out, preventing 
children from playing in their front yards or neighborhood 
parks. These gangsters harass and kill innocent people with 
their drug trade and illegal weapons. Quite simply, they hold 
neighborhoods and cities hostage.
    These criminals are not dummies. Every day they become 
smarter. They buy the latest technical equipment so that they 
can conceal their weapons, their contraband, and their money 
from the law. Their only goal is to make more money, and the 
lore of making more money brings them new recruits eager to 
learn the business and work their way to the top by any means 
necessary.
    In my view, the law enforcement community is behind the 
eight ball. We find our local governments do not have the 
resources, money, personnel, or equipment needed to turn the 
war on drugs around in our favor. It is critical that our local 
government receives the Federal assistance to help police 
departments protect their neighborhoods.
    The primary issue is manpower. The ability to put more 
police on the street is critical. One problem is funding, but 
another is that we are short of qualified applicants. We need 
to do much more to recruit qualified candidates to a career in 
law enforcement.
    One problem we see is that departments lose personnel 
faster than they can afford to replace them. We also see that 
departments try and fill the manpower void by posting overtime, 
making the already overworked police officer even more 
overworked. This eliminates preventive patrolling and community 
policing. The beat cop working on our city's streets has become 
a memory.
    This is critical. It is essential that people see the same 
officer in their neighborhood day in and day out. It is 
critical to have an officer that knows the trouble spots and 
the troublemakers. Just as important, community policing allows 
the community to know the officer, to trust that officer, which 
will ultimately help solve cases because with this trust they 
will call in information that may help solve a case. This is a 
vital link to successfully fighting crime.
    I can tell you no officer wants to see bars on windows on 
doors, an empty park, or parents forced to run into their home 
with the children so that they do not become a shooting victim. 
Unfortunately, these are common sights in the Hilltop area, the 
Bucket, and the Valley.
    The job of being a police officer has gotten tougher over 
my career, and I am certain these challenges will escalate over 
time. We can only hope that programs that have helped States, 
counties, and municipalities throughout the country in the past 
can be started up again. I hope you can hear the local 
governments asking for more troops and the much needed supplies 
to fight the domestic war that has been going on too long on 
American soil.
    And like everyone else, I will answer questions. That is 
why we are here.
    [The prepared statement of Mr. DiSabatino appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Mr. DiSabatino.
    Beginning with you, Mr. Kane, we now move to the portion of 
our hearing where Senator Biden and I will pose questions. I 
note among your many responsibilities you serve on the 
Governor's Advisory Commission on Youth. What would you say is 
the most effective way of dealing with youth, both on 
prevention or putting them on the rehabilitation path if they 
have committed offenses?
    Mr. Kane. If I actually knew that answer, I would be a 
million dollar consultant, but I will try to answer that 
because we have not done very well with that.
    I think a holistic approach in the prevention area where a 
Boys and Girls Club or a school becomes the child's almost 
parent, where you would work with the value development, 
educational development, and recreational and cultural issues 
so that the child has a chance to develop.
    We funded a small program at a Nativity School where we 
took 15 disadvantaged kids and treated them like they were in a 
private school environment. Each kid was behind 2 years in 
school. Eight of them have graduated from eighth grade and have 
been accepted at private schools and Catholic schools on free 
scholarships, and they passed the grade like everybody else.
    In the treatment end, on the back end for a delinquent, I 
think the earlier with provide rehab services to a child, the 
more likely you are to keep them from coming back. And at the 
back end, I think it is more about accountability and watching 
them.
    Chairman Specter. Mr. Mosley, you make a comment that it is 
regrettable, but factual, that there is a long wait when 
somebody calls for a policeman on the spot. We are talking 
about priorities all the time, and it is difficult to balance. 
But looking at your comment on the long wait, assess, if you 
can, when the Federal Government makes its allocations--and we 
are under budget constraints--about putting more money in the 
COPS program to help you with police on the street contrasted 
with rehabilitation on drugs. What would you suggest?
    Mr. Mosley. If I may, sir, I will give that a quick answer. 
But if I may, too, I would like to bring the chief of police 
forward, who I think can probably address that better. But the 
quick answer to that, as far as I am concerned, is the more 
officers we have on the street, the more able we are to address 
all things and all calls for service. That means timeliness. 
That means service to the public. That means a thorough 
investigation. That means caring about--and while the officers 
care now, there just is not time, unfortunately, when you are 
911-driven, to stop and take the time to get all the 
particulars and have all the interaction I think that is needed 
to help communities be safer.
    But if we had more officers, obviously we could be in more 
places at one time.
    Chairman Specter. Chief Horvath, I would like you to pick 
up on the same question. You accurately note that 80 percent of 
crime is drug related, and that goes to the rehabilitation 
issue, detoxification. You note the decrease in Federal grants, 
which is accurate. I would like your insights as to the 
balance. And as a subordinate question, we now have close to 
$40 billion in homeland security. What could be done by giving 
the homeland security people some local law enforcement 
responsibilities as well?
    Chief Horvath. I will answer the first question first, and 
I will give you the police officer's answer, not the social 
worker's answer, because I am sure we differ on this a little 
bit.
    I do not think rehabilitation has the same success rate 
that police departments do as far as getting crime off the 
street. But I do consider it to be very important. So if you 
are going to ask me personally how do you balance 
rehabilitation versus enforcement, I think enforcement should 
get the brunt of that in my personal opinion. And I know I 
speak just as a law enforcement officer when I say that.
    To the second question, I think homeland security funding 
going down to local law enforcement is great. It would be 
wonderful if we could use that money to also add police 
officers. Every time the threat level is raised, I have to take 
a police officer out of the neighborhood and have him patrol 
the fence at Dover Air Force Base at certain times throughout 
the day. So now he is not in a high-crime neighborhood. He is 
at an extremely low-crime part of Dover. Crime is virtually 
nonexistent at Dover Air Force Base. But it is important that 
we keep it that way, and when the threat level is raised, I 
understand we have to patrol that. It is just a shame I have to 
take one officer from one spot to put him to another.
    So the quick answer is I think some of that $40 billion 
that you speak of being sent down to local law enforcement for 
homeland security, as I said in my statement, hometown security 
is homeland security. And there is a really good chance that 
local law enforcement, whether it is a State police officer or 
a Dover officer or a Wilmington officer, is going to come in 
contact with the terrorist before someone from the FBI does or 
another agency.
    Chairman Specter. Mr. DiSabatino, I note from your 
biographical resume that you lecture youth groups on the 
dangers associated with illegal drug use. Tell us what you find 
on those lectures with respect to responses from the young 
people and what techniques you find to be the most effective in 
reaching them to try to influence their behavior with respect 
to potential drug use.
    Mr. DiSabatino. The most shocking thing when I speak with 
them is they know a lot more than I give them credit. 
Unfortunately, when I start talking to them and showing them 
some of the things that we have confiscated from drug dealers 
that the drug dealers use for trade, they will tell me, ``Oh, I 
have seen those down at the park. Oh, yeah, there were a couple 
guys that had a cigarette that looked like that,'' and so 
forth. And they start explaining things to me that I am not 
aware of. And then I go back, and I will maybe go on the 
Internet or try to look it up, and they are correct. I think 
the sad part is that the knowledge that they have already about 
the drug trade, about those that are using drugs and the 
friends that they know are using drugs really scares me at 
times.
    The other thing I--
    Chairman Specter. Are you suggesting that it is a 
reciprocal lecture, they lecture you a little?
    [Laughter.]
    Mr. DiSabatino. Every time I go somewhere, Senator, I learn 
something from everyone. And the other thing is that I find 
that if I just talk to them on their level, not try to, I 
guess, talk above them or something, then I get a better 
response from them. As I was just saying, when they start 
telling me things about certain drugs they know about, about 
certain things they see in parks, when I am interested in what 
they are telling me, they open up more and I find out more 
things about it.
    Chairman Specter. Thank you very much.
    Senator Biden?
    Senator Biden. Thank you, Mr. Chairman.
    Mr. Chairman, with your permission, I would like to 
introduce a couple elected officials that are here, if that is 
all right.
    Chairman Specter. Without objection.
    Senator Biden. Councilwoman Stephanie Bolden, who is the 
Chair of the Public Safety Committee for the City Council, is 
here. Stephanie, thank you for being here.
    Helene Keeley is the State Representative of the 3rd 
District; she is here, I am told. Hi, Helene. Thank you for 
being here.
    And two members of the County Council: An old friend, we 
have served a long time together, although he does not look 
like he has served a long time, Penrose Hollins of the 4th 
County Council District. Penrose, welcome.
    And, also, Jea Street of the 10th District, Jea is here. 
Thank you, Jea, for being here.
    Gentlemen, I would like to ask you a few questions, if I 
may, and, Mr. Chairman, I would ask unanimous consent that a 
statement by Senator Feingold of Wisconsin be placed in the 
record.
    Chairman Specter. Without objection, it will be made a part 
of the record.
    Senator Biden. Gentleman, in the past, meaning 6, 7, 8 
years ago, or even now, the FBI has taken on some 
responsibility, violent crime task forces, the DEA presence in 
the State. We went out of our way to get a DEA presence down in 
Dover and an office down there, and the FBI as well.
    Tell me, have they been able to devote as many resources in 
the last couple years as they have in the past to whatever 
degree they have worked with all of you, either at the local 
level, statewide level, or in the city of Wilmington? And I 
will open that to anyone. Jim, if you would like to respond?
    Mr. Kane. We have utilized the Feds on some occasions. They 
tend to want high-profile cases with very, very serious people, 
and I think they are somewhat preoccupied with the terrorism. 
We have a weed-and-seed program with Federal Government 
involvement. But I think in the past there were more resources 
available to help us.
    Senator Biden. Anyone else like to comment on that?
    Yes, Vince.
    Mr. Thomas. I know approximately 2 years ago in the city of 
Wilmington we had the DEA in, and we worked a wire, and it was 
very successful. I do not believe we realized the amount of 
drugs that this individual was selling on the street and the 
extent of his business and his connections that he had. He was 
also highlighted in the Delaware Today magazine because he was 
such a large player in the drug trade.
    We ended up seizing large amounts of heroin at the time and 
also a large amount of vehicles that the subject was using, 
along with some of the technical equipment that they were also 
using.
    Senator Biden. What I am hearing as I go around the country 
and what we have heard in the Committee is that DEA has had to, 
as you know, scrap their violent crime task forces, they have 
had to scrap a number of other efforts that they have been able 
to in the past work with local law enforcement because they are 
strapped. I personally think they are about a thousand agents 
short over what they need because they have necessarily had to 
move to terrorism.
    I was just trying to get a sense of what impact that has 
had on your ability to--to the extent they augmented--their 
manpower augmented your efforts in the past and whether or not 
you feel it now, whether there is any impact at all. That was 
the reason for the question.
    One of the things that I was most proud of in the crime 
bill--and Senator Specter supported it as well--was the School 
Resource Officer program. I found it to be extremely--based on 
here in the State of Delaware, talking to State police in 
particular, a very, very useful tool.
    How many, if you know, Jim, have we had to cut back on now 
that we have eliminated the funding for those? Have the school 
districts picked it up?
    Mr. Kane. I do not have that number, but many of the school 
districts have picked it up. We have even funded some with 
Byrne in Newark High School and Glasgow. So I think the State 
recognizes it is important, but we could certainly use more of 
that. It does make the hallways safer.
    Senator Biden. One of the reasons I ask it is, when we 
first put that program in, some people were skeptical. And one 
of the few things I am finding States are picking up that 
seemed in many places extraneous as the Federal funding is cut 
is the overwhelming popularity of the school resource officers. 
And my understanding is a number of school districts, even 
though they are strapped, have gone out and tried to--and you 
have used the Byrne grant money. What has been the impact, Jim, 
of the cuts in the Byrne grant, from your perspective as you 
look at it statewide, on local law enforcement?
    Mr. Kane. Well, when the Byrne money was eliminated and the 
Justice Assistance grant went back in, we lost about $1.5 
million along the way. So our drug treatment pods in the prison 
are drastically going to be cut back, and then the RSAC cuts 
along with it, and each--
    Senator Biden. Explain what RSAC is?
    Mr. Kane. RSAC is a residential substance abuse treatment 
program that the State of Delaware used to fund KEY/CREST pods, 
and each percentage of money goes for a total pod. You have to 
fund the whole thing. You cannot fund part of it. And then we 
used the other portion to fund drug treatment in the juvenile 
prison. That will be eliminated. There will still be some drug 
treatment, obviously, but the RSAC is--we are looking at, I 
think, according to Stan, about 80 to 100 inmates will not get 
drug treatment because it drastically reduces the concept they 
have, which is 6 months to release and then 6 more months 
after.
    We have lost our ability to expand the Safe Streets 
operations. I am using reverted money to try to keep every 
neighborhood happy, and it works, so I do not have the funds to 
do that. A lot of our diversion programs are starting to end 
because I do not have the money for the AG or the PD or the 
providers that divert cases.
    And as the Federal Government works, it takes a while for 
the cuts to kick in because you are always working a little bit 
in reverse.
    Senator Biden. So what you are looking at is not a very 
happy prospect then, as you look down the road.
    Mr. Kane. No. It is more with less and more constituents at 
the table asking for money, and it is difficult to keep 
everybody happy.
    Senator Biden. And the Operation Safe Streets--I leaned 
over when you were referencing it--as I said at the outset, you 
are talking two-time felons that you are looking at, and as I 
said to Senator Specter, and I said, ``He has been harping on 
this for 30 years.'' He said, ``No, 40.''
    But the truth of the matter is that it is a big payoff. It 
is a big payoff. And you are telling me that program is being 
cut back, Operation Safe Streets? Or are you cutting other 
programs to continue to fund that?
    Mr. Kane. Well, I have probably a lot of board members in 
the room, so I cannot really answer that. But the truth is--
    [Laughter.]
    Mr. Kane. The truth is probably somewhere in the middle. We 
cannot fund them in total like we used to. For example, in 
Wilmington when we ran Safe Streets, we were able to keep every 
community center open until midnight, which took a lot of kids 
off the street. And I do not have that money anymore, and I can 
only operate it in specific grids for finite amounts of time.
    Senator Biden. Could you see any difference when you had 
them open until midnight and now not being able to have them 
open until midnight? Maybe Chief Szczerba should be the one to 
answer that. Is there any concomitant impact on crime in the 
street or vandalism or violent crime? Keeping them open, did it 
work?
    Chief Szczerba. Yes, I think it greatly affects the quality 
of life in those communities, you know, because we have to 
strike a balanced pose here in law enforcement, you know, what 
we can do, what traditionally we are to do, enforce the law, 
but also hold in the community as the assets that we can add to 
it. And that is where, you know, we are losing. And if we are 
going to lose in one area, it is going to be in that area 
because we have to maintain public safety here in the city of 
Wilmington. So it is going to be on the law enforcement side 
where we are going to try to maintain those funds and continue 
to do so.
    You know, you mentioned about the school resource officers. 
We actually stepped forward here in the city of Wilmington. We 
have about 37 schools, and we only have one really truly public 
high school here, and we have a school resource officer which 
we just added recently there, and a couple of our alternative 
schools. But we could utilize that because that is our most 
valuable resource in the community, is the youth, and that is 
where we are falling behind, you know, to have an influence on 
that youth with a community center with extended hours or have 
a school resource officer in a school to reach that youth 
before they get into a problem.
    Senator Biden. Chief, elaborate for us, if you will, on 
what Director Mosley was talking about when he said the impact 
has been that in the city of Wilmington--he referred to it as 
forward-deployed police, community policing. Why aren't you 
able to keep--let me back up.
    When we wrote this crime bill, community policing was not 
an original idea with me, but the condition upon any community 
getting additional police under the crime bill was that they 
had to go to community policing. And when I met with law 
enforcement for the years--and Senator Specter knew this 
already--before we got that bill passed, law enforcement 
officers, beat cops--who were not beat cops--were not crazy 
about the idea of community policing because they did not have 
the resources. They knew if they had to get out of their car, 
patrol car, walk the neighborhoods or go to the neighborhood 
meetings and the rest, what would happen is they would be on 
their own, they would be very thinly spread, and they would not 
be able to respond very quickly.
    And that was the whole notion of using the COPS bill as a 
multiplier, putting 100,000 cops in the street when there were 
560,000 local cops nationwide, brought the number up to--now it 
is a little more than 100,000, over 660,000 local cops. But it 
had an incredible multiplier effect. It required all those 
550,000, or whatever the exact number was, to go and be beat 
cops. You had to put community policing in. I would argue that 
is one of the real significant reasons why crime dropped--
because people were in neighborhoods.
    Now, I want to make sure I understand what Director Mosley 
is saying. Your ability to do that is constrained by what? 
Numbers or having to dedicate law enforcement--Wilmington cops 
to Federal task forces? I mean, what is the reason why?
    Chief Szczerba. It is a combination. I would have to check 
selection D, All of the above.
    Senator Biden. Right.
    Chief Szczerba. It is the demand that the officers have on 
the street, so it is lacking in numbers and also the ever-
increasing demand, and the increasing demand--which was already 
mentioned at this table, the increasing demand is driven by 
America's appetite for illegal drugs, and that is how our crime 
is driven.
    We have to strike a balance in law enforcement, whether it 
be the city of Wilmington, the city of Dover, or the city of 
Seaford, and striking that balance is being able to maintain a 
properly staffed force to respond to the calls for service, 
which was already terms as 911-driven. And, yes, we are. But 
also to be able to--
    Senator Biden. Let me make sure I understand--I understand, 
but I want to make sure the press understands this. If you 
have, figuratively speaking, all your uniform officers out on 
the street acting as what most people would think as beat cops 
in their area, jurisdiction, and neighborhood, and you have 
them all out, that diminishes your ability to surge forces 
somewhere when you have to respond to something that goes 
beyond the requirement of a single cop in that neighborhood. Is 
that kind of what you are talking about?
    Chief Szczerba. Yes. It is about striking that balance 
because you will still be 911-driven, but, however, you must 
maintain a presence in those neighborhoods. And the presence in 
those neighborhoods are the community policing officers. Here 
locally in Wilmington, we have a community policing unit, and 
they will be able to respond to the community needs for long-
term problem solving, working a true hand-in-hand partnership.
    It has to be a philosophy that has to be throughout the 
entire police department. However, we know that would not be 
realistic because as you can hear the sirens in the background 
here today, we are responding. They are not community policing 
officers. They are officers in our Patrol Division. So it is 
striking the balance. I am, you know, a proponent of--I refer 
to it as ``quality policing'' because if you are saying 
``community policing,'' folks are going to think that you will 
have in every neighborhood a walking officer, you will have a 
police station there set up. That is not the case. It is about 
quality policing and striking that balance.
    Senator Biden. If, in fact, you had--and I am going to ask 
you this question as well, Chief. If, in fact, you had a 
relatively limited budget--if we could double your budget, the 
State, the city, the Federal Government were able to double 
your budget, what would you do first that you are not doing now 
if you had significantly more resources? If the director came 
to me and said, ``We got good news. We got another 4 million, 5 
million bucks you can spend this year, Chief, and you can have 
it for the next 6 years out,'' what is the first thing you are 
going to do? And as well in Dover, Chief. Maybe it is the best 
way for me, at least, to understand what your greatest needs 
are, what your priorities would be that are not being covered 
the way you would want to cover them now.
    Chief Szczerba. It is not getting any more complicated. It 
was already mentioned here this morning. Putting more cops on 
the street, more uniformed officers on the street. It sounds 
simplistic, but they are--
    Senator Biden. It does.
    Chief Szczerba. I mentioned we have a Uniformed Services 
Division, we have a Community Policing Unit. Somewhere in 
between there we need to be able to respond. We have some 
communities that are fairly stable, and then we have some 
communities that are in strife, and to have a unit particularly 
to respond to those communities in force so you would have 
something between your Uniformed Service Division and your 
community policing officers to come in and saturate that area.
    We made an attempt at that here in the city of Wilmington 
last year, and that was through the assistance of outside 
agencies, utilizing the services of Delaware State Police and 
New Castle County Police. And how we were able to do that is we 
still had the same amount of Wilmington officers in that area 
in northeast Wilmington. However, we were then augmented by the 
Delaware State Police. The policing activities were driven by 
Wilmington police officers. They made the lock-ups, handled the 
paper there. However, when we initiated that activity, we did 
not lose presence in that neighborhood because we had the 
assistance of those outside departments, and that mere physical 
presence, uniformed officers on the street, made the 
difference. And so the--
    Senator Biden. Was it effective?
    Chief Szczerba. I believe it was, and statistic-wise, we 
have seen some areas where it did not seem so. But if you 
talked to the folks in the neighborhood, that is where the 
difference was made. And that is what we heard. We had a 
positive response not only back to the police department but 
the members of our council. And I think it was very effective. 
And that is what I mean by if we could put people in uniforms, 
with having the funding, put people in uniforms that look like 
the one I am wearing here this morning and serve our community.
    Chief Horvath. I would answer the question very similar. If 
you are going to magically double my budget, as you spoke of 
hypothetical, I am going to increase every unit I have. I have 
a full service police department with community policing, 
criminal investigations, a drug unit, a juvenile unit, a 
special enforcement unit, a K-9 unit. And I can honestly say I 
do not have any unit that has too many police officers in it. I 
have already stolen from the regular detectives to add to 
patrol because, as I said, they are the backbone of the 
department. You have to increase the size of that unit. Not 
only is crime up, but calls for service are up.
    So the simple answer is I would increase every unit I have.
    Senator Biden. Well, a last question on homeland security. 
I am fond of saying--and my colleagues are probably tired of 
hearing me saying is--that if anyone is going to catch a 
terrorist putting sarin gas into the Hotel Dupont or down in 
Dover at Dover Downs, at the large hotel or the casino down 
there, it is not likely to be a brave Special Forces soldier in 
night vision goggles who is there. It is going to be--and I 
mean this sincerely. Really, when you think about it, it is 
pretty basic. It is going to be one of your law enforcement 
officers coming off a dinner break, going back checking the 
Dumpster behind the hotel. It is going to be someone in 
Wilmington walking down the street in a neighborhood that looks 
up and says, you know, those three apartments have been 
abandoned for the last 2 years. All of a sudden there is a lot 
of activity in there, and there are people we do not know. 
Maybe it is drugs. Maybe it is something else.
    So I am always perplexed by how we so disconnect local law 
enforcement from homeland security, which leads me to this 
question: When there is an orange alert and you have to put 
more forces down at the port, Chief, you have to put more 
forces at Dover Air Force Base, or the State police have to put 
more forces on the bridges over the canal, et cetera, do you 
get reimbursed for that by the Federal Government?
    Chief Szczerba. Yes.
    Chief Horvath. Yes, when it reaches a certain level, we do.
    Senator Biden. What level does it have to reach?
    Chief Szczerba. At the highest level, but it still draws on 
our resources. Even though we may get reimbursed, we have to 
put those officers out so we have a balance between overtime 
and utilizing officers pulled from other divisions. Just like 
Chief Horvath referred to he would like to increase the entire 
police department, well, that is when we fall behind. We will 
continue to serve in that manner, but, you know, September 10, 
2001, we faced weapons of self-destruction in our communities 
here in the city of Wilmington. We still face that today as we 
sit here. And now we have the additional responsibility with 
our response to terrorism threats and weapons of mass 
destruction.
    You know, we look at a local level. We are global- thinking 
people, but we look at a local level. And at the local level 
what is most to us is the weapons of self- destruction.
    Senator Biden. Vince, you represent an awful lot of beat 
cops, both in your capacity as a detective, but also your 
capacity as the president of the Lodge. What kind of 
conversations do your guys have when they are in the locker 
room changing, when they are getting off the beat? Seriously, 
what are people talking about as it relates to law enforcement 
and their problems? If we had, you know, all the cops back 
there in uniform who are, you know, out there every day, and 
you are just sitting around having a Coke, having a beer, you 
know, you go to the local restaurant afterwards, what do you 
guys talk about as it relates to the problems you face?
    Mr. DiSabatino. Well, one of the main conversations that 
always comes up is, ``Man, we ran our butt off.'' And it has 
been said here before that we are driven by complaints. I mean, 
that is what basically happens in your tour. You would love to 
be preventive where you can hit certain problem areas where you 
know the drug dealers are, where you know that the people are, 
you know, playing the loud music or, you know, other things 
like that. You would love to hit those places, but you cannot 
because once you clear a complaint, you are headed to another 
one. And then if somebody has a self-initiated complaint, they 
start a foot chase or a car chase, you are leaving that 
complaint and going to assist them. Then you have to go back to 
that, and that puts you behind even more because, depending on 
the seriousness of the crime, you may need three, four units. 
Well, that is three or four units that are not answering the 
complaints that are called in.
    And the phone does not stop. Some people call police for--
sometimes it is things that are not police matters. But a 
majority of the time, it is because it is complaints about, you 
know, disorderly subjects on the corner, the drug dealing, the 
shots fired, the assaults, the stabbings and so forth. And it 
just ends up that in the course of a 9-hour tour, you have 
handled maybe 30, 40, 50 complaints sometimes. And when you get 
together, I mean, cops love telling stories, but the first 
thing that usually starts it off is when you talk about how 
overworked you were the night before or that day. You know, 
``Man, I wish they would get some more people so that it could 
ease up a little bit.''
    Senator Biden. Beyond additional badges, as you know, the 
homeland security money prohibits the hiring of law enforcement 
officers. You get training. You get some equipment that is 
needed. I have a proposal. Actually, it is probably unfair to 
ask you to comment on it, but one of the things that worked in 
the crime bill when we wrote that bill was a colleague of ours 
was--I used to kid and call him--he is a good friend. I used to 
call him ``Barbed Wire Gramm,'' Phil Gramm of Texas, a former 
Senator.
    When I was trying to get the crime bill passed, there were 
only seven Republicans who supported it at the time, one to my 
right. And we were having great difficulty, and Senator Gramm 
came up to me and said, ``I will make you a deal.'' He said, 
``I will vote for the crime bill if you agree you would write 
into the bill that it be funded by cuts in the size of the 
Federal Government.'' And I said, ``What do you mean by that?'' 
He said, ``Well, the number of employees that work for the 
Federal Government, that if they are cut, the money saved in 
cutting the number of employees, civilian, will go into the 
crime bill.'' This is why he kids now and says I let him throw 
me in the briar patch.
    But I said, ``I will make a deal with you, if, in fact, we 
set up a trust fund.'' He said, ``What do you mean?'' I said, 
``Well, we will not spend any more money in the crime bill 
unless we cut the number of Federal employees, but every one of 
their paychecks goes into''--not like the Social Security 
lockbox, an actual trust fund, like the Highway Trust Fund, 
like gas taxes. And he said, ``Okay.''
    During the last administration, we cut something like 
290,000 employees around the Federal payroll, and all that 
money went into the trust fund. That is why we never had any 
fights about funding you all for the better part of 6 years.
    Well, the trust fund is gone now, and so I am proposing a 
new trust fund, and that is that we call it the Homeland 
Security Trust Fund and that the Homeland Security Trust Fund 
do everything from reinstating the COPS grants by $1.115 
billion to rebuilding the tunnels and subways and inspecting 
cargo. It is a whole list of things, about 35 items. It takes 
the 9/11 Commission report, and it puts the major items they 
call for being funded. And it calls for essentially reinstating 
the $2 billion that has been cut.
    And so I just wanted to--and I will tell you how I pay for 
it, which will not make everybody happy. I have this silly 
notion, Mr. Chairman, that I think rich folks are just as 
patriotic as poor folks and just as patriotic as middle- class 
folks. And I think if we just went out there and said the new 
tax cut for everybody making over $1 million a year gets cut 
for 1 year, that is $53 billion, 1 year; or take $10 billion 
out of that $53 billion going up to--it will actually get up to 
over $100 billion for that one cadre of people over the next 5 
years. Take $10 billion a year, that would fund every single 
solitary COPS program and every single solitary homeland 
security program that has gotten a D or an F by the Homeland 
Security Department.
    So I want to warn you all, that is what I am going to be 
coming back at. We are going to probably have to get some 
changes in order for that to get done, and if anybody has a 
different source of money to do that, I am open to it.
    But I might add, Mr. Chairman, I raised this issue with 
what was advertised to me to be the 50 wealthiest real estate 
developers in America. I was asked to speak to a group of 50 
developers by the National Real Estate Council, or whatever, 
down at the Canadian Embassy where they have that big 
amphitheater there. They can rent, I guess. And I went down and 
I told them what I wanted to do with their tax cut. And I 
asked, Does anybody disagree? Fifty. That is what was 
advertised. They told me that is what it was. And one person 
raised their hand and he said, ``No, Senator, I would object to 
you taking a year of my tax cut above $1 million, because I 
think you would just waste it.'' And I said, ``Well, how about 
if I put it in a trust fund?'' And I said, ``Anybody in here 
disagree?'' And I got an ovation from 50, allegedly, wealthiest 
real estate developers in the Nation.
    So I think there is a consensus here that there is a need 
to deal with homeland security, and you all are part of 
homeland security. So, guys, I am going to--it probably will 
take me another 8 years to get it done, but one of these days 
we are going to begin to change the priorities, I hope.
    I have a lot of other questions, and I know we have kept 
you a while here. But, Mr. Chairman, with your permission, I 
would like to be able to submit some questions in writing. We 
will make a lot of work for you all, and I guess maybe--
    Chairman Specter. That would be fine.
    Senator Biden. And also, Mr. Chairman, I am not going to 
ask that it be placed in the record, but there is a report my 
staff has issued out of our Subcommittee--well, I have issued 
on the Judiciary Committee, and it is called ``Abandoning the 
Front Line: The Federal Government's Responsibility to Help 
Fight Crime in Our Communities,'' dated September--
    Chairman Specter. Senator Biden, I am going to have to 
excuse myself to take a call. Are you close to concluding?
    Senator Biden. Yes, about just another few minutes.
    Chairman Specter. Okay.
    Senator Biden. Why don't you go ahead, unless you have more 
questions as well.
    Chairman Specter. Well, I am not sure how long the call 
will take. I will come back if Senator Biden is still 
commenting.
    I want to thank Senator Biden for suggesting this hearing. 
I want to thank you men for coming forward. When Senator Biden 
says, ``I have been at it for 35 years,'' I was elected 
district attorney 40 years ago--1965, actually, and served 
before that as an assistant D.A. And my view is that we ought 
to take the career criminals, three or more violent offenses--
and Senator Biden referred to a bill that I wrote, the armed 
career criminal bill--and throw away the key. They account for 
70 percent of violent crime.
    But when we deal with first offenders, second offenders, 
and especially juvenile offenders--and I join Senator Biden in 
thanking the Boys and Girls Club--I think we have to focus on 
realistic rehabilitation, we have to focus on job training, 
literacy training. And I believe that the problem of violent 
crime can be cut by 50 percent following what Senator Biden has 
said and some of the formulas I have worked on.
    We are hard at work on the military commission right now, 
and we are trying to find a way through on the Hamdan decision, 
which we have coming up. And if it were not for something that 
pressing, I would stay. And I will come back.
    Thank you.
    Senator Biden. [Presiding.] Thank you.
    Gentlemen, are there any additional comments any of you 
would like to make? I know there is so much to talk about here 
in terms of need. I wanted to ask you, Vince, you said--or I 
forget. Actually, I do not know who said it. Retention of law 
enforcement officers and the difficulty of retaining and 
qualifications of new recruits, somebody mentioned that 
subject. Would anybody like to elaborate on that?
    Mr. DiSabatino. Senator, for the Grand Lodge of the 
Fraternal Order of Police, I am on their membership, 
recruitment, and retention, and a problem that departments, I 
believe, throughout the State here and throughout the country 
are finding is that there are not a lot of people that want to 
be police officers anymore. I know that when I applied back--
and it seems many, many years ago--in 1983, 1984, when I was 
hired we had maybe 1,500, 1,600 applicants for maybe 20, 25 
positions. I believe our last class, if we are taking in 25, I 
believe we had 300 applicants. And I believe State police, 
county, and some of the other departments are maybe in the same 
boat where they do not have the large amount of people 
applying.
    The other thing you have is the process to become a police 
officer is designed to cut away at that number, to weed out 
those that do not meet the standards. So you may start out with 
300 applicants. You may only get 200 that truly show up for the 
testing. And the next thing you know they have to go through a 
background check, polygraph, drug testing, physicals, and so 
forth, so now you are looking at 200 people that applied, you 
may be down to 50, and you are looking to take maybe 20, 25 
people.
    The other problem you have is that in the city of 
Wilmington, we are not paid as well as some of the other 
agencies. We have guys that are leaving after they have put in 
maybe 3 years, 5 years. We even have guys that are leaving once 
they have 15 years. So the city of Wilmington, it seems like--
and I can speak for the city of Wilmington because, you know, I 
am on the department and I have seen it. We always seem to be 
losing, you know, the good guys. And the guys that stay on, you 
know, and do not quit in their first year or two, become good 
police officers learning through experience. Well, now they are 
taking their trade and the knowledge they have learned to other 
police departments, whether it be in the State or whether it be 
other States or to the Federal agencies that they have applied 
for and have gone to.
    Senator Biden. Gentlemen, as chiefs, could you talk to me 
about quality and retention? Because my experience--I mean, I 
have spent an awful lot of time with you guys, as you know, 
over the years and I have probably attended or spoken at more 
academy graduations than most. I have done scores of them over 
30-some years. One thing that impressed me has been the quality 
of the graduates. Almost every one is a college graduate. 
Almost every one--they seem fairly mature. But I think the 
retention piece is a real piece. Does it vary from department 
to department? Or is it pretty universal, the retention 
question?
    Chief Horvath. He hit right on the head as far as the 
applicants. We do get less applicants, and it seems like you 
get less qualified applicants, so it is harder to pick. But 
from being the chief in Dover, I do not have a retention 
problem, and I cannot sit here and tell you why I do not. But 
the last officer that left for another police department came 
back 3 months later, and I gladly hired him back.
    So I can--that way, I am not complaining at all. I am 
getting qualified officers. It is tougher to find--you are 
weeding through the applicants more and more and you get less 
applicants. It seems like less people want to be police 
officers for some reason. But--
    Senator Biden. I do not know. As my mother would say, no 
purgatory for all of you. I think it is one heck of a job. I 
mean, thank God you have guys and women like you all who want 
to do the job. But, I mean, I do not know many people who--you 
know, you have got to really be dedicated today to want to be a 
cop, it seems to me.
    But is there any other point you would like to make? Jim, 
is there any particular--if I gave you one choice where I could 
reinstate funding now at the Federal level, where would it be? 
What do you need most? You only get one, let's say. You can 
fully fund any program that has been cut. Which one do you 
want?
    Mr. Kane. Well, I would like the Justice Assistance grant 
program increase because the subsets of that allow us to fund 
across the board, a balanced approach. So if we increase the 
law enforcement capacity, we can look at the ripple effect, and 
I can work with the AG, the public defender, and courts and 
corrections to deal with the flow down the pike. Because what 
we learned about 8 years ago was that if we drastically 
increase the law enforcement piece, we back up all case 
processing, back up the prison cells, and without adequate 
treatment, we are sort of where we were before. So I like that. 
It gives the States flexibility to work across the board.
    Senator Biden. And how much has that been cut?
    Mr. Kane. About $1.6 million.
    Senator Biden. You know, we just passed the Adam Walsh 
Child Protection Act, which I was very proud to work on. But, 
you know, some of the stuff we are passing here gives you a 
little bit more money, but, you know, there is--the National 
Center for Missing and Exploited Children estimates that there 
are approximately 600,000 sex offenders nationwide, and 20 
percent--600,000 that have been through the system, and 20 
percent of those, 12,000 of them are unaccounted for. You know, 
now we have passed a law requiring that they have to register 
before they leave prison now, as opposed to after they leave 
and they report, et cetera.
    Can any of you talk about the impact on your workload of 
dealing with child offenders--you know, released child 
offenders and how hard it is to track or not track?
    Mr. Kane. We have set up a task force. It is a huge issue. 
When sex offenders get out of prison, it is the job of the 
police to inform everyone in the neighborhood, the websites, 
the fact that if they go to another State. Some people think 
that we are responsible in Delaware if a sex offender flees and 
goes to Pennsylvania and commits an act.
    We are looking hard at it. The Walsh Act, it puts a lot 
more burden on us to do the right thing. We had a problem in 
that if an inmate declared him- or herself homeless, there was 
no address given. So when they left the prison, we did not even 
know where they were going. So I think we have closed that 
loophole. But law enforcement is working hard to keep the 
public safe, and at the same time, we are working hard to try 
and keep up with the Federal requirements.
    Senator Biden. What I personally need from you, since I 
have been so engaged in this, as you guys know, for 20 years in 
the first Biden crime bill that focused on this, I would 
really--I would ask you--and I guess I would look to you, Jim. 
I would really appreciate over the next 6 months if you all 
could give me an assessment of what resources are required to 
be diverted or what resources you would need in order to fully 
implement what I think is a pretty powerful act, because what I 
am trying to do, to be very blunt about it, around the country 
is build the database that would justify my going back to the 
Congress and saying, look, we need to provide this additional 
funding, if it is needed--maybe it is not--additional funding 
to allow local law enforcement around the country to implement 
this.
    Which leads me to another question. Technical assistance 
grants were a pretty big deal in the Biden crime bill. This new 
crime bill that I have had that is not going anywhere, this 
term, anyway, which added another 50,000 cops, would provide 
money to allow you flexibility--flexibility to pay overtime, 
flexibility to use the money for technical assistance, 
flexibility as it relates to not necessarily having to hire a 
new shield if you chose not to do that, or to keep on a Biden 
cop that is already on that the city of State or county is not 
prepared to now make up the difference and keep that cop.
    If we are able to get the Biden crime bill, the COPS bill 
reinstated--because essentially you are right, they have 
basically zeroed it out--what changes, if you could--and you 
may not--you may want to submit this for the record. What 
changes in the use of those funds would help you in terms of 
actually dealing with putting manpower in the street short of a 
new shield? Are there any changes you would like in the 
operation of the COPS portion of the crime bill that would give 
you more flexibility? And if you do not have an answer off the 
top of your head, if you think about it, for the record let me 
know if there is any enhancement beyond the dollars to fund it 
that would be useful to you.
    Chief Horvath. One quick answer to that is to use that 
funding, if you are not going to put a shield on the 
department, is to use it for overtime for reallocating 
resources. Maybe you don't need an officer, but there are 
certain times of the year where you do need additional police 
presence, and if you could use that money for overtime, that 
would be great.
    Senator Biden. Again, because of my interest in this, I 
could keep you guys here forever. But, Jim, did you have a 
comment?
    Mr. Kane. One of the criticisms from the other side on this 
was that it was not crime-driven; in other words, you could 
take a small police department in Montana with three officers 
and virtually no crime, and if they had a good grant writer, 
they could write a grant and get 35 officers, that there is no 
way their tax base could pick up, and then there were giant 
crime sprees in that town. And when the police went away, the 
crime went away. So maybe a need- driven, where it is a 
community policing program but the town has to prove some need 
for it.
    That was just the criticisms from the current 
administration on why a COPS program was--
    Senator Biden. But there is absolutely zero basis for that.
    Mr. Kane. Right.
    Senator Biden. Not one shred of evidence to sustain what 
you have just asserted. Not one shred of evidence to sustain 
that. The irony is that when they announced the end of the COPS 
program, the Attorney General said, and I quote, ``It has 
worked marvelously.''
    ``It has worked marvelously, and I am announcing that I am 
ending it.'' I mean, I found that the most fascinating 
statement I have heard in my 33 years as a United States 
Senator.
    One of the reasons why I would argue, gentlemen, that it 
worked is that the cops helped me write the bill, and the way 
it worked was that it was left up to the local officials to 
decide. Local officials are not going to take on two- thirds of 
the requirement of a copy if, in fact, they do not need it 
because it comes out of their tax base. That is why I 
eliminated the LEAA legislation, which just gave flat grants to 
do what you wanted.
    The city, the town, the county, the State has to buy in, 
and that is why it worked. They bought in. And if they did not 
buy in--so I know of no--and, by the way, one of the things I 
would argue--and I would like your input. You know, a lot of 
small towns got one and two cops under the Biden crime bill, 
and one of the things I have observed, notwithstanding the 
debate in Dover about radar traps, one of the things I have 
observed is that, you know, they have real problems in these 
small towns with drugs. I have to take you--and, I mean, you 
all are local, but go to Dagsboro, to Selbyville, to Houston, 
with drugs and with violent crime, and as you guys get affected 
up here in Wilmington, it is like squeezing a balloon. Every 
time you guys would clamp down and we would get help from DEA 
coming in with the task forces with you, it just was like 
squeezing a balloon. I remember holding a hearing a couple 
years ago and making a point after I left the hearing in 
Seaford to take a reporter and drive literally three blocks 
from where the hearing was, and we got to a corner and two 
junkies approached us to sell us drugs. This is not the Bucket. 
This is not Hilltop.
    So if you have any amended statement any of you would like 
to make and anything that we have not picked up today, I would 
appreciate it, and we will put it in for the record.
    Other of my colleagues are doing field hearings around the 
country because, folks, I do not know how we talk about dealing 
with our National security if our local security is not 
tenable. And, folks, it is not just here. Violent crime is up, 
you know, up 5.7 percent, I think the number is, in New 
Hampshire; it is up in South Carolina; it is up in Mississippi; 
it is up in Texas; it is up in Florida. So it is not a local 
phenomenon, and I find it hard to believe that people do not 
see the correlation between the cut of a couple billion dollars 
in local law enforcement money from the Federal Government and 
the rise in crime.
    But does anyone have a closing comment you would like to 
make? I welcome it from any of you.
    Mr. DiSabatino. Senator, one thing that both of the chiefs 
mentioned--well, two things. One they did not mention was if 
you were to tell them that they had an extra $4 to $6 million 
that they could spend, you would have to first pick them up off 
the floor. They did not mention that part. But the thing was 
that they said that they would use the money for school 
officers and community policing mostly. And I think that is one 
of the things that the crime bill did, was it made the police 
officer more human to the young adults, to the elderly that 
there was someone there for them.
    Unfortunately, some of these children are raised by the 
streets. Their idea of a policeman is the cop that had to beat 
up their brother, had to beat up their father, arrested their 
mother for drugs, came into their house and took people out. 
When they are in the school, they see them, you know, out of 
uniform. They see them in a different light, and they see that 
they are approachable and that they are just human beings. And 
I think that is one of the important things when we had the 
extra money and the extra police that we could do, was we could 
put them in the community so that they saw them all the time. 
We could put them in the schools so that they saw them all the 
time, and they saw that they were not these people that just 
constantly were there to hurt people or to lock them up, that 
you could go to them and talk to them about other problems. I 
think that is one of the big things the bill helped, was to 
show that side of the police officers.
    Senator Biden. The reason I wrote the bill in the first 
place in 1988--and it did not get passed until 1994--was the 
overwhelming data from criminologists that there is an absolute 
direct correlation between the willingness of someone in the 
community--a child or a senior and anyone in between--to 
cooperate with a local law enforcement officer based on two 
things: one, they trust them; but, two, that they would be 
there. It is one thing to turn in the drug dealer on your 
corner knowing that 3 weeks later or 3 months or a year later, 
when he is out, he comes back and knows where you live. And 
there may be no cop there this time. The only thing that I have 
observed in all my years of doing this and the thousands of 
hours of hearings I have held on law enforcement issues, the 
only thing we know for sure about criminals, as they get older, 
they commit fewer crimes because it is harder to run and jump 
the chain-link fence when they are being chased, to overstate 
it. The second thing is there is a four-corner intersection and 
three cops on three corners and not on the other and crime is 
going to be committed at that intersection, it will be 
committed on the corner where there is not a cop. That is about 
all we know for absolute certainty.
    That was the entire thrust and rationale of my crime bill. 
And I would argue it worked because you guys made it work. And 
so I don't know how we do this unless we get you more 
resources, but I thank you for your--and I mean this sincerely. 
I thank you for your commitment to duty. I thank you for your 
commitment to the people. And in a sense, it is almost 
surprising to me more law enforcement officers are not leaving. 
It is one tough job. And if you look over the horizon with the 
funding streams diminishing, not increasing, it does not 
surprise me. I am not saying that is the reason why people are 
not staying, but from my perspective there is a correlation 
between knowing you got someone standing next to you that is 
going to help you, knowing you can do something, you can 
actually walk away after you finish the day and say I did not 
just put out fires, I actually changed something, I actually 
made an impact, I actually began to change this neighborhood. 
And I do not think you can do that without the resources.
    But, again, I want to thank Senator Specter, who is in the 
process of working out--the reason he had to take the phone 
call, he told me before he started, is we are trying to figure 
out how to deal with what you have read a great deal about, the 
treatment of detainees as well as the Hamdan case, the Supreme 
Court decision, and that falls within the jurisdiction of this 
Committee. And he has been a major player in trying to 
negotiate that, and there has not been much he and I have 
disagreed on over the last however many years we have worked 
together. So I am happy--if I cannot be Chairman, I am happy he 
is.
    [Laughter.]
    Senator Biden. Because it is a very difficult job he has 
right now.
    Without any further testimony, I thank you all. I thank 
particularly the elected officials for being here because you 
have got to figure out the funding that is being diminished 
federally, where you make it up, if you make it up. It is not 
easy. And the hearing is adjourned.
    [Whereupon, at 12:02 p.m., the Committee was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T2150.001
    
    [GRAPHIC] [TIFF OMITTED] T2150.002
    
    [GRAPHIC] [TIFF OMITTED] T2150.003
    
    [GRAPHIC] [TIFF OMITTED] T2150.004
    
    [GRAPHIC] [TIFF OMITTED] T2150.005
    
    [GRAPHIC] [TIFF OMITTED] T2150.006
    
    [GRAPHIC] [TIFF OMITTED] T2150.007
    
                                 <all>

</pre></body></html>
